No.

-

In The

Supreme Court of the United States
JOEY LAMOND BRUNSON, a/k/a Flex,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rules 12.2, 21, and 39 of the Rules of this Court, petitioner Joey
Lamond Brunson a/k/a Flex, by counsel, respectfully asks leave to file the
accompanying Petition for a Writ of Certiorari without prepayment of costs and to
proceed in forma pauperis.

Pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A (CJA), on March 7,
2017, the United States District Court for the District of South Carolina appointed
a CJA panel attorney as counsel for petitioner. Since that time, while there have
been substitutions, petitioner has been represented by an attorney appointed
pursuant to the CJA in all of the proceeding before the district court, the Fourth
Circuit, and this Court, including those leading up to the Fourth Circuit’s decision
below.
Respectfully submitted,
LAW OFFICES OF
DAVID B. BETTS

David B. Betts
Counsel of Record
CJA Panel Attorney
276 Mariners Circlie–Suite 201
Columbia, SC 29212
(803) 206-6506
Bettslaw@sc.rr.com

October 26, 2020
2

